Orrick, Herrington & Sutcliffe LLP

1152 15th Street NW
Washington, DC 20005

October 24, 2019

+1 202 339 8400

Via Electronic Filing and Hand Delivery

Mark S. Davies

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

orrick.com

E mdavies@orrick.com
D +1 202 339 8631
F +1 202 339 8500

Regents of the University of Minnesota v. LSI Corporation, et al.,
No. 19-337

Dear Mr. Harris:
We represent Respondents Ericsson Inc., Telefonaktiebolaget LM Ericsson,
LSI Corporation, Avago Technologies U.S., Inc., and Gilead Sciences, Inc. in the
above-captioned case. Pursuant to Rule 30.4, we are writing to request a 21-day
extension of time to file Respondents’ briefs in opposition to certiorari.
The petition for certiorari was filed and docketed on September 12, 2019.
Respondents’ briefs in opposition are currently due, on one extension, on November
14, 2019. If this second request for extension of time is granted, Respondents’ briefs
in opposition would be due on December 5, 2019.
Respondents respectfully request this extension due to the press of other
matters, including, among others: a brief in opposition due on November 4 in
Amarin Pharma, Inc. v. Int’l Trade Comm’n, 19-152; a response and reply brief due
on November 8 in Variety Stores, Inc. v. Walmart Inc., 19-1601, 19-1631 (4th Cir.);
and a petition for certiorari due on December 29 in Apple Inc. v. VirnetX Inc.. This
extension will ensure sufficient time to respond to the issues raised in the petition
for certiorari in this case.
Counsel for petitioner does not object to this further extension of time for all
respondents.
Thank you in advance for your consideration of this matter.

Very truly yours,

Mark S. Davies
Counsel for Ericsson Inc. and
Telefonaktiebolaget LM Ericsson

Kristopher L. Reed
Counsel for LSI Corporation and Avago
Technologies U.S., Inc.

Adam K. Mortara
Counsel for Gilead Sciences, Inc.
cc: Counsel for Petitioner (via overnight mail and email)

2

